<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                        THURSDAY, MARCH 28, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito, (presiding).
    Present: Senators Capito, Tester, and Shaheen.

                    DEPARTMENT OF HOMELAND SECURITY

                              Coast Guard

STATEMENT OF THE HONORABLE ADMIRAL KARL SCHULTZ, 
            COMMANDANT


           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO


    Senator Capito. I'd like to welcome everyone, and I call 
this hearing of the Subcommittee of Homeland Security to order. 
This is the subcommittee's first hearing of the fiscal year 
2020 budget cycle, and we are reviewing the budget request of 
the Coast Guard.
    I want to thank the Commandant of the Coast Guard, Admiral 
Karl Schultz, for agreeing to appear before our subcommittee 
today. He is an outstanding leader and a top military officer 
of one of our five armed services of the United States. I have 
had the opportunity to join Admiral Shultz to review Coast 
Guard activities around the country, and just a week-and-a-half 
ago at critical Coast Guard facilities in my state of West 
Virginia. I am sure his insights will help our subcommittee 
better understand how the Coast Guard's budget request would 
support its many missions, from ensuring the safe navigation of 
waterways, to pollution control, to defending the United 
States' maritime borders. This is the first time Admiral 
Schultz is appearing before our subcommittee, and we look 
forward to hearing from him.
    I am very pleased to be joined today, as always, by our 
Ranking Member, Senator Tester. We are excited to hold our 
first fiscal year 2020 hearing after an interesting 2019 cycle, 
and I think I can speak for both of us when I say we look 
forward to continuing our work together.
    Last year, we worked hard to make sure necessary funds were 
appropriated to the Coast Guard to construct the first new 
heavy icebreaker built by the United States in more than 40 
years. We also continued an historic recapitalization of the 
Coast Guard overall, and we look forward to working with 
Admiral Schultz to recommend funding to support and make use of 
those investments.
    Senator Tester and I are both from landlocked states, but 
we recognize how important the Coast Guard is to our national 
security.
    The Coast Guard's maritime law enforcement activities, 
including significant interdiction of illegal traffic in the 
source and transit zones of the Caribbean and Eastern Pacific, 
may take place far away from our shores, but those efforts 
prevent dangerous drugs from making their way into West 
Virginia and Montana communities. While much of the nation's 
attention has been appropriately focused on the southwest land 
border, we'll hear today about the importance of the Coast 
Guard's role in protecting our maritime borders and keeping us 
safe.
    Last year alone, the Coast Guard seized over 200 metric 
tons of cocaine on the high seas, and they've already seized 56 
tons this year.
    In recent months, the Coast Guard has been on the minds of 
Americans for two other reasons, one good and one not so good.
    During the last hurricane season, which was so devastating 
to many American communities, I was very proud that the world 
was able to see the work of the Coast Guard. I think we saw it 
on every major news outlet--saving the lives of those impacted 
by the devastation. We know that the Coast Guard saves lives 
every day, but last year the men and women of the Coast Guard 
saved nearly 4,000 lives, including 992 during hurricane 
response efforts. Our Maritime Safety Unit near Huntington, 
West Virginia, which we just visited, is one of those brave 
units that stands ready to load up their trucks and haul their 
boats wherever Americans are in need and where disaster 
strikes.
    Unfortunately, the second reason the Coast Guard has been 
on people's minds recently was the unnecessary 35-day 
government shutdown. Through no fault of their own, Coast Guard 
men and women went without pay during this time while 
continuing to serve and perform their critical missions, in 
many cases far away from their families. These folks are often 
serving alongside their partners in the other branches of the 
military who were getting paid.
    I am hoping that this year we can work together in a 
bipartisan fashion and through regular order to enact our 
Homeland Security Appropriations bill on time. Our 
appropriations bill is the best ``Pay Our Coast Guard Act'' out 
there. But regardless of what happens, I'm committed to making 
sure the men and women of the Coast Guard are treated fairly, 
no matter what twists and turns the appropriations process may 
take.
    The fiscal year 2020 budget request we are reviewing today 
is a good starting point for our subcommittee to begin 
determining how we can best support the men and women of the 
Coast Guard, including more than 42,000 active duty, 6,000 
reserve, and 8,500 civilian staff.
    Admiral Shultz, I look forward to working with you and your 
team to determine whether further adjustments are required to 
ensure the Coast Guard has what it needs to be successful in 
its many missions. We appreciate your testimony and your 
willingness to be the first one out of the gate from the 
Department to answer questions from members of this 
subcommittee.
    I will now turn to our distinguished Ranking Member, 
Senator Tester, before asking our witness to proceed with his 
testimony. Then we will allow each Senator, in order of their 
arrival, seven minutes for any statements or questions that 
they may have. Thank you.


                    STATEMENT OF SENATOR JON TESTER


    Senator Tester. Chairman Capito, thank you very much for 
your kind words, and I want to echo them back at you and say 
that I look forward to continuing to work with you on this 
committee to do a very, very important job, to make sure that 
not only the Coast Guard but all of the agencies have the 
funding to be able to do their job, and hopefully in this 
Congress we aren't going to end up in a conference committee. 
That would be a lot better.
    At any rate, I also want to welcome you, Commandant. I want 
to thank you for your service, and I thank you for your 
appearance before this subcommittee.
    Our job here today and throughout this appropriations 
process is to ensure the men and women of the Coast Guard have 
the tools that they need to accomplish their many missions, and 
that taxpayer dollars are allocated wisely. These are goals 
that I think every one of us share.
    Last weekend I had the opportunity to travel with the 
Commandant and meet the fine personnel stationed at the Coast 
Guard Pacific Area Command to learn more about the national 
security activities in the Pacific region. It was a great 
reminder of the expansive mission the Coast Guard has, and the 
number of high-quality men and women that make up that 
workforce.
    In fiscal year 2018 alone, the Coast Guard responded to 
15,634 search and rescue missions. As the Chairwoman has 
pointed out, they saved nearly 4,000 lives, interdicted over 
3,600 undocumented migrants, inspected 2,300 ship containers, 
and seized 209.6 metric tons of cocaine. To put that in a 
fashion that I can understand, that was nearly 100 semi loads 
of cocaine. The Coast Guard seizes more cocaine than all other 
Federal agencies combined.
    Unfortunately, the appetite for hard narcotics is not 
decreasing. It continues to increase around the globe. To 
counter the movement of narcotics from source countries, the 
Coast Guard has intelligence on about 80 percent of the drug 
traffic in the eastern Pacific transit zone, but only has the 
resources to act on about 20 percent. I think it's our desire 
to figure out a way to close that gap.
    There's also ongoing need to recapitalize the Coast Guard's 
fleet of cutters and aircraft and shore facilities. In the 
fiscal year 2019 DHS Appropriations Act, Chairman Capito and I 
worked with other members of the subcommittee to strengthen the 
Coast Guard's capital investment program. We funded the first 
polar security cutter, six fast response cutters, the second 
offshore patrol cutter, the 130-J cargo plane, and $255 million 
for upgrades to shore facilities.
    Now, in contrast to that, the President's fiscal year 2020 
budget request would cut the Coast Guard's capital budget by 
over $1 billion despite a laundry list of unfunded 
requirements. I want to discuss the impacts of this budget on 
the Coast Guard's recapitalization plans. I also want to 
discuss the need to strengthen readiness.
    Last year the Commandant gave his annual State of the Coast 
Guard Address where he said that the service is approaching a 
tipping point when it comes to service readiness. This budget 
starts addressing the issue, and we want to learn more about 
the Coast Guard's requirements in fiscal year 2020 and beyond.
    I look forward to examining your budget in more detail 
today so we can make sound decisions about the resources and 
assets that the Coast Guard men and women need today and in the 
future.
    I just want to say one thing that's not in my prepared 
remarks. After being with the Commandant for three days, I got 
to see this guy's leadership, I got to see his skills in 
dealing with the men and women in the Coast Guard, I got to 
witness his vision, and I will tell you, I think the Coast 
Guard is in marvelous hands with you at the helm.
    Thank you very much, Chairwoman.
    Senator Capito. Thank you.
    With that, we'll move to the Commandant for his opening 
statement. If you'll synopse it to about 5 minutes, and then 
we'll continue with questions. Thank you.


             SUMMARY STATEMENT OF HON. ADMIRAL KARL SCHULTZ


    Admiral Schultz. Well, good morning, Madam Chairwoman 
Capito and Ranking Member Tester. I appreciate the opportunity 
to testify today and ask that my written statement be entered 
into the record.
    First, on behalf of the men and women of the United States 
Coast Guard, please accept my profound thanks for your 
unwavering support, including the recently enacted fiscal year 
2019 appropriation and the 2018 hurricane supplemental funding. 
These were meaningful steps towards delivering the ready, 
relevant, and responsive Coast Guard the American public 
expects and deserves.
    Yet our work is not done. If you take just one thing from 
my testimony this morning, please remember this: Readiness. We 
must be ready, ready to push our maritime border 1,500 miles 
out from our shores; ready to preserve the $5.4 trillion in 
economic activity that flows through our maritime marine 
transportation system on an annual basis; ready to support the 
combatant commanders' needs across the globe; ready for the 
next hurricane season, which is just around the corner; and 
ready to put our cyber authorities to use as we adapt to 21st 
century threats.
    Without question, building and sustaining readiness is my 
top priority, and we are at a critical juncture, a tipping 
point, as you noted.
    Now, for almost a decade of near flat-line operations and 
support funding, Coast Guard readiness is eroding, just like 
the other armed services. Yet, unlike the Department of 
Defense, the Coast Guard funding is categorized as non-defense 
discretionary, which means we were excluded from the focused 
effort to rebuild our military and continue to find ourselves 
on the outside looking in when it comes to material operations 
and support plus-ups.
    In 2017, the Department of Defense received a 12 percent 
boost in operations and support, while the Coast Guard received 
just a 4 percent increase, yet the Coast Guard's military 
contributions are immutable. Every year, we proudly expend over 
$1 billion on defense-related activities in support of 
combatant commanders, but the $340 million of defense readiness 
monies that we received for this work has not been changed or 
adjusted in 18 years.
    As an example of our growing defense portfolio, the 
National Security Cutter Bertholf is supporting the Indo-
Pacific commander today in the South China Sea to enforce U.N. 
sanctions against North Korea and protect and advance U.S. 
interests throughout the western Pacific Ocean. Though we 
strive for relentless resilience to execute homeland security 
and defense operations, our purchasing power has indeed 
declined. If we continue to neglect our growing backlog of 
deferred repairs on our capital assets, including shore 
infrastructure, we will lose ground in the fight to defend our 
homeland from evolving threats challenging our nation.
    Despite these challenges, I am extremely proud of the Coast 
Guard's contributions. In 2018, as part of DHS' layered 
security strategy, and its support of Joint Interagency Task 
Force South, our surface and aviation assets interdicted, as 
you noted, 209 metric tons--that's 460,000 pounds of cocaine, 
more than all other Federal agencies combined, and apprehended 
more than 600 suspected smugglers. Disrupting those 
transnational criminal organizations at sea, where they are 
most vulnerable, helps reduce what we call the ``push factors'' 
that are responsible for driving human migration to our 
southwest land border.
    As I speak, National Security Cutter Waesche is patrolling 
the eastern Pacific Ocean. Our national security cutters have 
exceeded performance expectations by every metric, and now we 
must focus on the transition from outdated and costly medium 
endurance cutters to our planned fleet of 25 highly capable 
offshore patrol cutters, which will be the backbone of the 
Coast Guard's offshore presence for decades to come.
    In the polar regions, your Coast Guard is the sole surface 
presence to protect our rights and project our sovereignty. As 
access to the region expands and interest from China and Russia 
grows, it's in our national interest to be there to enhance 
maritime main awareness and build governance in this 
economically and geographically strategic, competitive area. In 
the high latitudes, presence equals influence.
    Two weeks ago, our sole operational heavy icebreaker, the 
43-year-old Polar Star, returned from a 105-day patrol to 
Antarctica, where it conducted the annual McMurdo Station 
breakout, enabling resupply of this vital national interest. 
These missions take a toll, and Polar Star's crew worked 
miracles to keep their cutter mission viable: battling a 
shipboard fire, numerous electrical outages, and combatting 
engine room flooding. Just off the ice edge, we embarked Coast 
Guard and Navy divers into the frigid Antarctic Ocean to effect 
repairs to a shaft seal. I am proud of the crew's efforts, but 
I remain concerned that we are only one major casualty away 
from being a nation without any heavy icebreaking capability.
    New icebreakers cannot come fast enough.
    Thank you for the $675 million provided in the fiscal year 
2019 appropriation. Coupled with the $300 million in prior year 
appropriations, I am pleased to report we are on track to award 
a detailed design and construction contract this spring to keep 
this program on schedule.
    Finally, I appreciate the Administration's support for a 
number of initiatives that invest in our greatest strength, and 
that is our people. While modest, they represent tangible 
investments towards a mission-ready total workforce. For 
instance, critical investments in our marine inspections 
workforce, to our cyber security operations and build upon 
capabilities that facilitate the $5.4 trillion of annual 
economic activity on our nation's waterways, while protecting 
maritime critical infrastructure from attacks, accidents, and 
disasters.
    A dollar invested in the Coast Guard is a dollar well 
spent, and with your continued support, the Coast Guard will 
live up to our motto, Semper Paratus, Always Ready.
    Thank you, Madam Chairwoman, Ranking Member Tester, and 
committee, and I look forward to taking your questions.
    [The statement follows:]
            Prepared Statement of Hon. Admiral Karl Schultz
                              introduction
    Madam Chairwoman and distinguished members of the Committee, I 
appreciate the opportunity to testify today. Thank you for your 
enduring support of the United States Coast Guard, particularly the 
significant investments provided in the Fiscal Year 2019 Consolidated 
Appropriations Act.
    Your Coast Guard is on the front lines of our Nation's effort to 
protect the American people, our homeland, and our way of life. As 
threats and challenges to our national security and global influence 
grow more complex, the need for a Ready, Relevant, and Responsive Coast 
Guard has never been greater.
    Appropriately positioned within the U.S. Department of Homeland 
Security (DHS), the Coast Guard is a federal law enforcement agency, a 
regulatory body, a first responder, a member of the U.S. Intelligence 
Community, and a military service and a branch of the Armed Forces of 
the United States at all times\1\--The Coast Guard offers specialized 
and unique capabilities across the full spectrum of maritime 
activities, from security cooperation up to armed conflict.
---------------------------------------------------------------------------
    \1\ 4 U.S.C. ' 1; 10 U.S.C. ' 101
---------------------------------------------------------------------------
    The Coast Guard has matured and evolved over the course of our 228-
year history, adapting our people, assets, and capabilities in response 
to emerging national demands and international challenges. We are 
locally based, nationally responsive, and globally impactful.
    To outline my vision for the Service, I recently released the U.S. 
Coast Guard Strategic Plan 2018-2022. To that end, my highest priority 
is to ``Maximize Readiness Today and Tomorrow,'' and readiness starts 
with our people, who are our greatest strength. In the competitive 
marketplace the Armed Forces find ourselves, now is a critical time to 
invest in our mission-ready total workforce.
    My second top priority is continuing to ``Address the Nation's 
Complex Maritime Challenges'' through international and domestic 
leadership in the maritime domain. A unique instrument of national 
power, the Coast Guard offers the ability to secure the maritime 
border, combat Transnational Criminal Organizations (TCOs), and 
facilitate $4.6 trillion of annual economic activity on our Nation's 
waterways.
    Finally, in a competitive budget environment, your Coast Guard is 
acutely focused on my third priority, ``Delivering Mission Excellence 
Anytime, Anywhere,'' by continuously challenging ourselves to innovate 
and drive increased efficiency for better organizational performance in 
response to both manmade crises and natural disasters.
                           strategic effects
    The Coast Guard plays a critical role in a comprehensive approach 
to securing our borders--from disrupting drug trafficking and illegal 
immigration in the southern transit zones, to projecting sovereignty 
across the globe. Our Nation's maritime borders are vast, and include 
one of the largest systems of ports, waterways, and critical maritime 
infrastructure in the world, including 95,000 miles of coastline.
    As part of the DHS layered security strategy, the Coast Guard 
pushes out our Nation's border, and serves as the ``offense'' in a 
comprehensive approach to layered border security strategy. Through the 
interdiction of illicit drugs and the detention of suspected drug 
smugglers, the Coast Guard disrupts TCO networks at sea, over a 
thousand miles from our shore, where they are most vulnerable. Coast 
Guard maritime interdictions weaken the TCOs who destabilize our 
immediate neighbor Mexico, the Central American land corridor, and 
South American countries. Our interdiction efforts minimize corruption 
and create space for effective governance to exist. Coast Guard 
interdiction efforts reduce the ``push factors'' that are responsible 
for driving migration to our Southwest land border.
    Working with interagency partners, the Coast Guard seized 209 
metric tons of cocaine and detained over 600 suspected smugglers in 
fiscal year 2018, which is more than all other federal agencies 
combined. Highlighting the capabilities of one of our modern assets, in 
November 2018, the National Security Cutter (NSC) CGC JAMES, in support 
of Joint Interagency Task Force South (JIATF-S), seized nearly nine 
tons of cocaine and detained over 40 suspected drug smugglers from 
various drug conveyances, including low-profile go-fast vessels and 
fishing vessels. In addition to stopping these drugs from getting to 
our streets, the information we gather and share with our partners in 
the Intelligence Community facilitates deeper understanding of TCOs and 
ultimately helps our unified efforts to dismantle them.
    As an important part of the modern military's Joint Force\2\, we 
currently have forces assigned to each of the six geographic Combatant 
Commanders (COCOMs), as well as Cyber Command, Transportation Command, 
and Special Operations Command. The Coast Guard deploys world- wide to 
execute our statutory Defense Operations mission in support of national 
security priorities. Typically, on any given day, 11 cutters, 2 
maritime patrol aircraft, 5 helicopters, 2 specialized boarding teams, 
and an entire Port Security Unit are supporting Department of Defense 
(DoD) COCOMs on all seven continents. In the Middle East, our squadron 
of six patrol boats continues to conduct maritime security operations 
on the waters of the Arabian Gulf in close cooperation with the U.S. 
Navy, promoting regional peace and stability.
---------------------------------------------------------------------------
    \2\ In addition to the Coast Guard's status as an Armed Force (10 
U.S.C. ' 101), see also Memorandum of Agreement Between DoD and DHS on 
the Use of Coast Guard Capabilities and Resources in Support of the 
National Military Strategy, 02 May 2008, as amended 18 May 2010.
---------------------------------------------------------------------------
    Likewise, as one of the principal federal agencies performing 
Detection and Monitoring (D&M) in the southern maritime transit zone, 
the Coast Guard provides more than 4,000 hours of maritime patrol 
aircraft support and 2,000 major cutter days to DoD's Southern Command 
(SOUTHCOM) each year.
    Coast Guard authorities and capabilities bridge national security 
needs between DoD war fighters abroad and DHS agencies protecting our 
homeland. In addition to COCOM support, the Coast Guard partners with 
federal, state, local, territorial, tribal, private, and international 
stakeholders to address problems across an increasingly complex 
maritime domain. Our leadership on global maritime governing bodies and 
our collaborative approach to operationalize international agreements 
drives stability, legitimacy, and order. We shape how countries conduct 
maritime law enforcement and establish governance.
    Looking forward, the performance capabilities and expected capacity 
of our future Offshore Patrol Cutter (OPC) fleet will provide the tools 
to more effectively enforce federal laws, secure our maritime borders, 
disrupt TCOs, and respond to 21st century threats. Continued progress 
on this acquisition is vital to recapitalizing our aging fleet of 
Medium Endurance Cutters (MECs), some of which will be over 55 years 
old when the first OPC is delivered in 2021. In concert with the 
extended range and capability of the NSC and the enhanced coastal 
patrol capability of the Fast Response Cutter (FRC), our planned 
program of record for 25 OPCs will be the backbone of the Coast Guard's 
strategy to project and maintain offshore presence.
    In the Arctic region, the Coast Guard remains steadfastly committed 
to our role as the lead federal agency for homeland security, safety, 
and environmental stewardship. There, we enhance maritime domain 
awareness, facilitate governance and promote partnerships to meet 
security and safety needs in this geo-strategically and economically 
vital area. As access to the region continues to expand, strategic 
competition drives more nations to look to the Arctic for economic and 
geopolitical advantages, and the Coast Guard stands ready to provide 
the leadership and sustained surface presence necessary to protect our 
rights and sovereignty as an Arctic Nation.
    Looking to the Antarctic, the 43-year old CGC POLAR STAR, the 
Nation's only operational heavy icebreaker, just returned home after 
successfully completing Operation DEEP FREEZE (DF-19), the annual 
McMurdo Station breakout, though not without overcoming several high-
risk casualties to the ship's engineering systems. The ship's crew had 
to battle a fire that left lasting damage to electrical systems; ship-
wide power outages occurred during ice breaking operations. And in the 
same transit, divers were sent into the icy waters to investigate and 
repair a propeller shaft seal leak. Events like these reinforce the 
reality that we are only one major casualty away from leaving the 
Nation without any heavy icebreaking capability.
    With increased activity in the maritime reaches and growing 
competition for resources, we cannot wait any longer for increased 
access and a more persistent presence in the Polar Regions. Our 
sustained presence there is imperative to ensuring our Nation's 
security, asserting our sovereign rights, and protecting our long-term 
economic interests.
    Last year, we released a request for proposal (RFP) and later this 
spring we plan to award a detail design and construction (DD&C) 
contract for the construction of three heavy Polar Security Cutters 
(PSCs). I am thankful for your support for the $675 million in the 
fiscal year 2019 appropriation. This funding, coupled with the $300 
million in Shipbuilding and Conversion, Navy (SCN) funding in fiscal 
year 2017 and 2018, is sufficient to fund construction of the first PSC 
as well as initial long lead time material for a second PSC.
    Our value to the Nation is observed on the farthest shores around 
the globe as well as closer to home where we continue to be ``Always 
Ready'' to answer the call for help. The 2018 hurricane season led to 
yet another historic Coast Guard response effort. The Coast Guard 
mobilized over 8,600 active duty members, reservists, and civilians for 
hurricane response across the United States for hurricanes Florence and 
Michael in the mid-Atlantic states and Gulf Coast respectively, as well 
as typhoon Mangkhut in Guam.
    In support of, and in coordination with the Federal Emergency 
Management Agency (FEMA) and other federal, state, local, and 
territorial agencies, the Coast Guard saved nearly 1,000 lives using 
helicopters and shallow water craft, provided logistical support to 
first responders, and oversaw the safe and effective resumption of 
commerce at over 20 impacted sea ports.
    While such a level of professionalism and distinction is what the 
American people have come to expect from your Coast Guard, that 
response comes at a cost. We continue to do our very best to stand 
ready to respond to all maritime disasters, both natural and manmade; 
however, these efforts consume future readiness. Our aging assets and 
infrastructure require increased maintenance and repairs, all of which 
is compounded by the on-going recovery and restoration operations of 
the historic hurricane season of 2017.
    In 2017 alone, the Coast Guard lost the equivalent of two major 
cutters (e.g., over 300 operational days) due to unplanned repairs. 
Expanding that to the last two years, we have lost three years' worth 
of major cutter patrol days. In 2017 and again in 2018, shortages in 
parts and supplies cost the Coast Guard over 4,500 flight hours each 
year, or the equivalent of programmed operating hours for seven MH-65 
helicopters. Each hour lost in the transit zones keeps us further from 
reaching our interdiction targets and helps the TCOs deliver their 
illicit cargoes.
    Service readiness starts with our most valuable asset--our people. 
We must continue to recruit, train, support, and retain a mission ready 
total workforce that not only positions the Service to excel across the 
full spectrum of Coast Guard missions, but is representative of the 
diverse Nation we serve. Our workforce end strength was reduced by over 
1,250 personnel during a three-year period from fiscal year 2012 to 
fiscal year 2015. And compared to the workforce of fiscal 2012, the 
Coast Guard has nearly 1,000 fewer personnel to accomplish an ever 
increasing mission set. Adequate increases to depot maintenance 
funding, coupled with strategic human capital investments, are critical 
to addressing these readiness challenges.
                               conclusion
    The Coast Guard offers a capability unmatched in the federal 
government. Whether combating TCOs to help stabilize to the Western 
Hemisphere, responding to mariners in distress in the Bering Sea, or 
supporting U.S. Central Command (CENTCOM) on the Arabian Gulf, the 
Coast Guard stands ready to execute a suite of law enforcement, 
military, and regulatory authorities and capabilities to achieve 
mission success anytime, anywhere. We cannot do this on the backs of 
our people--now is the time to address the erosion of readiness 
experienced in our Service over the past decade due to near flat line 
funding for operations and support.
    While the demand for Coast Guard services has never been higher, we 
must address our lost purchasing power, the growing backlogs of 
deferred maintenance on our capital assets, and the degraded 
habitability of our infrastructure.
    Our 48,000 active duty and reserve members, 8,500 civilians, and 
over 25,000 volunteer members of the Coast Guard Auxiliary need your 
support to maintain a Ready, Relevant, and Responsive Coast Guard.
    With the continued support of the Administration and Congress, your 
Coast Guard will live up to our motto--Semper Paratus--Always Ready. 
Thank you for your support of the men and women of the Coast Guard.
                    fiscal year 2020 budget request
The Coast Guard's Fiscal 2020 Budget request is focused on three main 
priorities:

  1. Maximize Readiness Today and Tomorrow
  2. Address the Nation's Complex Maritime Challenges
  3. Deliver Mission Excellence Anytime, Anywhere

                 maximize readiness today and tomorrow
    The Coast Guard's top priority is Service readiness. The fiscal 
year 2020 President's Budget request begins to address the erosion of 
readiness that resulted from years under the Budget Control Act. 
Critical investments in the workforce as well as depot maintenance for 
the fleet will put the Service on the path to recovery to sustain 
critical frontline operations.
    Additionally, investments in asset modernization sustain 
recapitalization momentum while advancing other critical programs. The 
fiscal year 2020 Budget request supports the Service's highest priority 
acquisition, the OPC, and continues recapitalization efforts for 
cutters, boats, aircraft, IT systems, and infrastructure.
            address the nation's complex maritime challenges
    As one of the Nation's most unique instruments of national 
authority across the full spectrum of maritime operations, the Coast 
Guard cooperates and builds capacity to detect, deter, and counter 
maritime threats.
    While nefarious activities destabilize and threaten vulnerable 
regions, the Coast Guard offers capabilities, authorities, and 
established partnerships that lead to a more secure maritime border. 
The fiscal year 2020 Budget invests in a holistic approach to combat 
TCOs through targeted detection and interdiction of suspected drug 
smugglers, at-sea biometrics, and increased partnerships with allied 
law enforcement nations in Central and South America, to quell illegal 
migration.
    As the Marine Transportation System (MTS) grows increasingly 
complex, the Coast Guard's marine safety workforce must adapt to 
continue to facilitate commerce. The fiscal year 2020 Budget increases 
the marine inspection workforce while addressing key findings from the 
report on the tragic sinking of the freight vessel EL FARO and the loss 
of 33 crewmembers.
              deliver mission excellence anytime, anywhere
    The Coast Guard is an agile and adaptive force whose greatest value 
to the Nation is an ability to rapidly shift among its many missions to 
meet national priorities during steady state and crisis operations.
    As new threats in the cyber domain emerge, the Coast Guard's cyber 
workforce serves as the critical link between DoD, DHS, and the 
Intelligence Community. The fiscal year 2020 Budget increases the cyber 
workforce to promote cyber risk management and protect maritime 
critical infrastructure from attacks, accidents, and disasters.
    The Coast Guard seeks to continually improve organization

    al effectiveness and the fiscal year 2020 Budget eliminates 
redundant and outdated IT services to reinforce the culture of 
continuous innovation and enhance information-sharing across the 
               Service.fiscal year 2020 budget highlights
            procurement, construction, & improvements (pc&i)
    Surface Assets: The budget provides $792 million for the following 
surface asset recapitalization and sustainment initiatives:

  --National Security Cutter (NSC).--Provides funding for post-delivery 
        activities for the seventh through eleventh NSCs, and other 
        program-wide activities. The acquisition of the NSC is vital to 
        performing DHS missions in the far offshore regions around the 
        world. The NSC also provides a robust command and control 
        platform for homeland security and contingency operations.

  --Offshore Patrol Cutter (OPC)--Provides funding for construction of 
        the third ship and long lead time materials (LLTM) for the 
        fourth and fifth OPC. The OPC will replace the Medium Endurance 
        Cutters, now well beyond their service lives, which conduct 
        multi-mission operations on the high seas and coastal 
        approaches.

  --Fast Response Cutter (FRC)--Funds procurement of two FRCs, totaling 
        54 of the 58 vessels needed for the domestic program of record. 
        These assets provide coastal capability to conduct Search and 
        Rescue operations, enforce border security, interdict drugs, 
        uphold immigration laws, prevent terrorism, and enhance 
        resiliency to disasters.

  --Polar Security Cutter (PSC)--Provides funding to support detail 
        design and construction activities of the joint Coast Guard-
        Navy Integrated Program Office (IPO) and program management 
        associated with construction of the lead PSC. PSCs will provide 
        the Nation with assured surface access to the Polar Regions for 
        decades to come.

  --Polar Sustainment--Supports a multi-year Service Life Extension 
        Project (SLEP) for CGC POLAR STAR, including program management 
        activities, materials purchases, and production work.

  --Waterways Commerce Cutter (WCC)--Provides funding for acquisition 
        planning activities, including continued evaluation of options 
        to replace the capabilities provided by the current fleet of 
        inland tenders and barges commissioned between 1944 and 1990. 
        These multi- mission platforms are integral to the protection 
        of maritime commerce on the inland rivers.

  --Cutter Boats--Continues funding for the production of multi-mission 
        cutter boats fielded on the Coast Guard's major cutter fleet, 
        including the NSC, OPC, and PSC.

  --In-Service Vessel Sustainment--Continues funding for sustainment 
        projects on 270-foot Medium Endurance Cutters, 225-foot 
        seagoing Buoy Tenders, and 47-foot Motor Lifeboats.

  --Survey and Design--Continues funding for multi-year engineering and 
        design work for multiple cutter classes in support of future 
        sustainment projects. Funds are included to plan Mid-Life 
        Maintenance Availabilities (MMA) on the CGC HEALY, CGC 
        MACKINAW, and the fleet of 175-foot Coastal Buoy Tenders.

    Air Assets: The budget provides $200 million for the following air 
asset recapitalization or enhancement initiatives:

  --HC-144--Continues Minotaur mission system retrofits and provides 
        high-definition electro- optical infrared cameras to meet DHS 
        Joint Operational Requirements.

  --HC-27--Continues missionization activities, including funding for 
        spare parts, logistics, training, and mission system 
        development.

  --HH-65--Continues modernization and sustainment of the Coast Guard's 
        fleet of H-65 short range recovery helicopters, converting them 
        to MH-65E variants. The modernization effort includes 
        reliability and sustainability improvements, where obsolete 
        components are replaced with modernized sub-systems, including 
        an integrated cockpit and sensor suite. Funding is also 
        included to extend aircraft service life for an additional 
        10,000 hours.

  --MH-60--Includes funding to support a service life extension for the 
        fleet of medium range recovery helicopters to better align 
        recapitalization with DOD's future vertical lift program.

  --sUAS--Continues program funding to deploy sUAS onboard the NSC 
        allowing increased interdiction through greater Intelligence, 
        Surveillance, and Reconnaissance (ISR).

    Shore Units and Aids to Navigation (ATON): The budget provides $174 
million to recapitalize shore infrastructure that supports Coast Guard 
assets and personnel, as well as construction and improvements to 
ensure public safety on waterways. Examples include:

  --Replacement of covered boat moorings at Station Siuslaw River, 
        Oregon; recapitalization of failed aviation pavement at Sector 
        Columbia River, Oregon; construction in Boston, Massachusetts 
        to support arriving FRCs; and construction in Sitka, Alaska to 
        support arriving FRCs.

    Other (Asset Recapitalization): The budget provides $69 million for 
other initiatives funded under the Procurement, Construction, and 
Improvements account, including the following equipment and services:

  --Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance (C4ISR)--Provides design, 
        development, upgrades, and assistance on C4ISR hardware and 
        software for new and in-service assets.

  --Program Oversight and Management--Funds administrative and 
        technical support for acquisition programs and personnel.

  --CG-Logistics Information Management System--Continues development 
        and deployment of this system to Coast Guard operational 
        assets.

  --Cyber and Enterprise Mission Platform--Provides funding for 
        emerging Command and Control, Communications, Computer, Cyber, 
        and Intelligence (C5I) capabilities.

  --Other Equipment and Systems--Funds end-use items costing more than 
        $250,000 used to support Coast Guard missions, including 
        equipment to support operation and maintenance of vessels, 
        aircraft, and infrastructure.
                      operations and support (o&s)
    Operation and Maintenance of New Assets: The budget provides $59 
million and 297 FTE to operate and maintain shore facilities and 
sustain new cutters, boats, aircraft, and associated C4ISR subsystems 
delivered through acquisition efforts:

  --Shore Facilities--Funds operation and maintenance of shore facility 
        projects scheduled for completion prior to fiscal year 2020. 
        Projects include: Coast Guard Yard dry dock facilities in 
        Baltimore, Maryland; FRC Homeport Facilities in Galveston, 
        Texas; Electrical Utilities for Air Station Barbers Point, 
        Hawaii; and Housing for Station Jonesport, Maine.

  --FRC--Funds operation and maintenance and personnel for five FRCs 
        and shore-side support for FRCs in Galveston, Texas; Key West, 
        Florida; and Apra Harbor, Guam.

  --NSC--Funds crew of NSC #9, as well as personnel for sensitive 
        compartmented information facility (SCIF) crews and analytical 
        support, and shore-side support personnel in Charleston, South 
        Carolina.

  --PC--Funds a portion of the crew for OPC #1, as well as shore-side 
        personnel to develop operational doctrine for the new class of 
        cutter to be homeported in Los Angeles/Long Beach, California.

  --HC-130J Aircraft--Funds operations, maintenance, air crews, and 
        pilots for HC-130J airframe #12.

    Pay & Allowances: The budget provides $118 million to maintain 
parity with DoD for military pay, allowances, and health care, and for 
civilian benefits and retirement contributions, including a 3.1 percent 
military pay raise in 2020. As a branch of the Armed Forces of the 
United States, the Coast Guard is subject to the provisions of the 
National Defense Authorization Act, which include pay and personnel 
benefits for the military workforce.
    Asset Decommissionings: The budget saves $12 million and 119 FTE 
associated with the planned decommissioning of one High Endurance 
Cutter (WHEC) and three 110-foot Patrol Boats (WPBs). As the Coast 
Guard recapitalizes its cutter and aircraft fleets and brings new 
assets into service, the older assets that are being replaced will be 
decommissioned:

  --High Endurance Cutter (WHEC)--The budget decommissions one WHEC. 
        These assets are being replaced with modernized and more 
        capable NSCs.

  --110-foot Patrol Boats (WPBs)--The budget decommissions three WPBs. 
        These assets are being replaced with modernized and more 
        capable FRCs.

    Operational Adjustments: In fiscal year 2020, the Coast Guard will 
make investments that begin to address the erosion of readiness of the 
Service while investing in new workforce initiatives:

  --Aircraft Federal Aviation Administration (FAA) Compliance--The 
        budget provides $22 million to replace obsolete aircraft 
        equipment and systems necessary to comply with FAA 2020 
        airspace requirements.

  --Cyber and IT Infrastructure--The budget provides $16 million and 38 
        FTE to mature the cybersecurity defense program. The budget 
        also provides funding for an information technology framework 
        and platform to establish a consolidated user interface 
        primarily for Command Centers.
  --Restoring Depot Readiness--The budget provides $10 million to begin 
        to restore eroded vessel and aircraft readiness and address 
        critical information technology maintenance and inventory 
        backlogs.

  --Human Capital and Support Infrastructure--The budget provides $17 
        million and 22 FTE to improve enterprise-wide support for the 
        workforce, including the transition to electronic health 
        records and training and support for the Coast Guard Reserve.

  --Counter Transnational Criminal Organizations (TCO)--The budget 
        provides $7 million and 26 FTE to expand the Coast Guard's 
        capacity to execute a multi-layered approach in the Western 
        Hemisphere maritime transit zone, dismantle TCOs, and secure 
        our Nation's borders from illicit smuggling of all kinds.

  --Maritime Safety, Security, and Commerce--The budget provides $6 
        million and 20 FTE to strengthen the Coast Guard's marine 
        safety program through improved marine inspector training, 
        establishment of a third party oversight and auditing program, 
        expansion of the marine inspector workforce, and improved 
        accession opportunities for marine inspectors.

    Senator Capito. Thank you very much for that opening 
statement, and I'll begin with the questions.
    Both of us mentioned in our opening statements, and you 
mentioned it in your statement too, the Coast Guard's role in 
interdicting drug trafficking. Can you tell me what partners 
you work with in order to stop drugs from coming in and how 
that partnership works in terms of preventing and seizing not 
just the drugs but the smugglers as well?
    Admiral Schultz. Absolutely, Madam Chair. Thank you for the 
question.
    Here in the United States within our own department, we 
work very closely with Customs and Border Protection, 
particularly their marine branch. They fly P3's on the maritime 
patrol side of the operations and the equation. They contribute 
about almost 50 percent of the hours there.
    We work with Homeland Security Investigations on the 
investigative side. Once we take the drugs off the water, HSI 
is tied into that work.
    But across the United States Government, we work very 
closely with Department of Justice. I mentioned folks 
interdicted at sea. When you look at the last three-year 
period, it is 1.4 million pounds of cocaine, 1,800 smugglers. 
We bring them back here domestically, work with DOJ for 
prosecution. It's the cycle of success. They help us derive 
information, intelligence to build on cases to reach deeper 
into the cartels.
    We work with the Department of Defense, the combatant 
commands. I have a force provider to U.S. Southern Command, and 
a subordinate command to the South. I think many of you, many 
of the committee members have been there. That is a premiere 
institution, I think on the planet, for coordinating the 
interdiction efforts internationally, here domestically.
    And then we work with partner nations. We have more than 30 
bilaterals here in the Western Hemisphere that allow us to 
partner with key countries like Colombia in the drug fight, 
Panama, Costa Rica. You name it, we work very closely.
    So it is a multi-level domestic partnership, international 
partnership. That is how we get after the fight.
    Senator Capito. Do you feel that you have adequate 
resources to keep moving and expanding that responsibility?
    Admiral Schultz. Madam Chair, what I would say, as Senator 
Tester talked about, there's a capacity conversation to provide 
four ships on an annual basis, what we call airborne use-of-
force HITRON helicopters. We're auctioning about 25 percent of 
the known intelligence. With more, we can do more. But I would 
say we are pushing into the fight.
    This year the budget request increases money for additional 
HITRON airborne use-of-force helicopter hours. Right now my 
commitment is four. This will allow us to potentially put a 
fifth helicopter down there. While we commit to four, we're 
striving to put six or seven cutters down there on an annual 
basis because this is, in fact, important work for the nation.
    Senator Capito. Right, right. Thank you for your good work 
on that.
    When we toured the Coast Guard facilities in West Virginia, 
one of the things that came to mind is the great work that 
they're doing there on vessel identification and continuity of 
operations and technology. You mentioned the need for up-
scaling the Coast Guard's IT systems on our visit. What do you 
have in this budget that will do that, and how do you see that 
rolling out over several years?
    Admiral Schultz. Well, Madam Chairwoman, I would say first 
off, thanks for acknowledging that. We have antiquated 
infrastructure, IT infrastructure across the Coast Guard. That 
is a place where we have bright employees. They're making 
decisions about what's the organization's commitment to the 
things that enable them to do their job. So we do have to make 
an investment.
    In this budget we have a $14 million line item. It's a 
PCNI. So on the acquisition side that really gets after cyber 
and enterprise mission platform upgrades.
    There are a couple of specific projects. There's our 
satellite compatibility with DoD. There's what we call the 
MSRAM, which is a Maritime Security Risk Assessment Model. 
We're upgrading those. That's how we do port vulnerabilities. 
But writ large, ma'am, that $14 million I think is an initial 
investment on a longer-term plan to bring our antiquated 
systems forward.
    In the OSC, we design the platforms there, we layer them. 
That's part of our service center, one of the three key nodes 
for all of our mission applications. So this is the initial 
conversation on what I think will be a multi-year investment to 
pull the Coast Guard forward.
    And lastly, we're watching what the Department of Defense 
is doing on a cloud-based application. We're actually going to 
the cloud with our auxiliary ops program this summer. So we're 
dabbling there, but we're kind of trying to inform ourselves 
from best practices here in government, because we do have to 
make a bold move, ma'am. I think we'll start that on my watch 
here.
    Senator Capito. Well, I'm very supportive of those 
initiatives.
    When we went to Huntington and we saw the single-gender 
crew, I know that part of your initiative and the Coast Guard 
Academy's initiative is to diversify the Coast Guard with more 
women and more minorities. I think it was pretty clear from the 
tour, that they're not set up to have both genders to be able 
to serve in such a small space.
    Could you talk a little bit about how you envision the 
Coast Guard changing to make that different and make it more 
accommodating?
    Admiral Schultz. Absolutely, Madam Chairwoman. Thank you 
for the question. So the Osage, which we were on, a river 
tender here, pushing a barge, the only woman that could 
accommodate would be the officer in charge, the way the 
burlings are configured. That ship is more than a half-century 
old. All our new ships are built with more modularity. It's 
enhanced creature comforts for the crew. We're not a 21-person 
burling anymore, a 24-person burling. There are six, eight, 
four-person burlings. It allows us much more flexibility in the 
assigning of women.
    Sometimes, you know, matching the pay grades and the 
availability ratings, you just can't get there. So every new 
ship we are bringing to bear, with the help of this committee, 
is absolutely a step towards greater gender integration for our 
men and women in the Coast Guard, particularly for our women. 
We want every opportunity that exists in the Coast Guard to be 
available to both men and women.
    Senator Capito. Very good. Again, I'm supportive there. 
Since the budget was written several months ago, and we know 
things change rapidly around here, I wanted to know if there 
was anything you would like to articulate that may not be in 
your original budget that may be useful for us in formulating 
this appropriations bill.
    Admiral Schultz. Madam Chairwoman, I would say that I think 
the Administration's budget is a fair representation that 
maintains momentum on our key capital interests. That's the 
security cutters, the offshore patrol cutter. This committee 
has been tremendously supportive.
    On the operating side, this is a start in the right 
direction. I talked a little bit about being left outside of 
that raising the bar for the military under that national 
security presidential memo number 1. There are some good things 
in here, $10 million towards maintenance for cutters, some 
people initiatives, an electronic health record. So I would 
say, ma'am, this is a definite strong step.
    Is there anything that has changed specifically? Nothing 
that I would call up to the committee's attention today, but 
I'm very encouraged about really having the conversation about 
what a ready Coast Guard looks like, and there is some 
investment needed, ma'am, to do that for America.
    Senator Capito. Thank you very much, and I'll turn to 
Senator Tester.
    Senator Tester. Once again, I want to thank you for being 
here, Commandant. I want to thank you and all the people that 
you serve with in the Coast Guard for their service to this 
country.
    I want to kind of follow-up on what the Chairwoman was 
talking about. Readiness is a top priority. Does the fiscal 
year 2020 budget request provide you with resources that you 
need to restore readiness?
    Admiral Schultz. Sir, it's a definite step in the right 
direction. On the capital side, there are conversations that 
this budget is significantly less than last year. But if you 
look over the course of the last 8 years, with 2019 including 
the security cutters, $675 million, that was a bit of an 
aberration. That was including the President's mark.
    There's been a slow, steady, positive slope on our capital 
side of the budget. So I think that's a fair budget to start 
this conversation moving forward.
    On the people side, sir, again, we're very encouraged. 
There is not a constituency tied to Coast Guard readiness. So 
this is a challenge that I think I will be carrying in my 
quiver here for the next three-plus years, is communicating why 
these investments in people.
    What concerns me, sir, is this new blended retirement after 
1 January, with Coast Guard and any member of the armed forces. 
I think it's right for the nation, but we're an organization 
with the highest retention of any of the armed services. Almost 
40 percent of our enlisted people historically have gone to 20-
year careers. Almost 60 percent of our officers. Now they have 
the option at 12 years to take home 2 percent a year if they 
invest in the thrift savings plan, very similar to other thrift 
savings. We've got to be an attractive employer of choice. So 
we've got to invest in people. This budget allows us to start.
    The reserve Coast Guard men and women, not on active-duty 
orders, we can give them tuition assistance for the first time 
in more than a decade. That's competitive. The National 
Guardsmen in your states, they're getting much more benefits 
than our Coasties. I would love to take a Coast Guardsman, man 
or woman, who has served their nation but they have other life 
demands, other aspirations, keep them in the reserves. But when 
they leave today, they don't see much there that makes that 
attractive. Things in this budget actually allow us to compete 
for talent and retain talent better.
    Senator Tester. What is your active duty end strength right 
now? How many people?
    Admiral Schultz. So we're about 41,500 active duty.
    Senator Tester. And what's your goal? Are you where you 
want to be?
    Admiral Schultz. Sir, I would say this. I would say that 
the 2019 budget included 200 additional positions FTE. The 2020 
proposal has 600. I'm a little loathe to put a number out 
there. We've had a number out there in the past. I think if we 
continue to grow as we're doing in our budget requests, putting 
bodies on our new platforms, I think we're on a good 
trajectory. We'll continue to refine that number. My 
predecessor talked about 5,000. I'd use that as I'm 7 months in 
the job. I'd like to refine that.
    Senator Tester. Did you meet your recruiting goals this 
last year?
    Admiral Schultz. Sir, we're doing well in recruiting.
    Senator Tester. And I'm just curious. If you had close to 
perfect right now, I know. But if you had the perfect Coast 
Guard, what would the make-up of men and women in it be?
    Admiral Schultz. Well, sir, as I look across society writ 
large, I think the workforce is approximating a 50/50 model. 
We're 15 percent women, so there's plenty of running room 
there. Underrepresented minorities is another place where 
numbers are less than the 15 percent.
    Senator Tester. Okay. So, I want to talk about the Polar 
Security Cutter. You have now received close to a billion bucks 
for acquisition, which is enough to build one and maybe start 
on a second. You said that the procurement would anticipate 
awarding a contract this spring.
    Admiral Schultz. Sir, I hope and hear late April/May. 
That's our projected timeline.
    Senator Tester. Okay. When we visited, we talked about six 
new icebreakers, three heavy, three medium. There is $35 
million in the fiscal year 2020 request. That's a lot of money, 
but it's not a lot of money when you're talking about buying a 
second icebreaker. Does this request keep that second 
icebreaker on schedule?
    Admiral Schultz. Senator, the $35 million allows us to 
manage a program moving forward. There are clearly some 
opportunities for efficiencies, economic cost savings if you 
buy some long lead-time materials early. There are some things 
like the ice hardened propulsion units in here that take some 
time to do. I would say $35 million allows us to go forward. 
There may be some economic efficiencies where there would be 
additional monies in that project.
    Senator Tester. We're talking about awarding the contract 
for the first one coming right up in the next few months. Do 
you have a timeline for awarding the second? Because, if I 
remember correctly, you were talking about that by the time 
that got built, if it was awarded this spring, in April/May, is 
it 2023? Is that what you're talking about?
    Admiral Schultz. Senator, I think 2023 is our target. I 
think it's optimistic. But 2023, early 2024 is what I think 
we're holding on.
    Senator Tester. Okay. So making those assumptions, what is 
your optimum time for awarding the second contract?
    Admiral Schultz. So we would like to see--I think you'll 
see in our 2021 budget another big number moving forward here, 
sir, that gets after the second Polar Security Cutters.
    Senator Tester. So are you looking at awarding--I mean, I'm 
talking from your perspective. We've got to fund it. But from 
your perspective, next year?
    Admiral Schultz. Yes, sir. Next year would be the big 
number on the front end.
    Senator Tester. So that's when you anticipate awarding it? 
That's when it would be optimal to award the second one?
    Admiral Schultz. So if we're funded in 2021, obviously, 
when that comes into fruition, that would push us into 
possibly--it depends on when that budget comes through, sir, 
but potentially six or 8 months after that.
    Senator Tester. Okay. As I said in my opening statement, 
you guys have 80 percent awareness of drug activity. You were 
able to interdict 20 percent due to constraints. What do you 
need to be able to get to a point where we can get another 60 
percent effectiveness?
    Admiral Schultz. Well, Senator, I think as we talked about, 
what are those mission enablers? There's clearly additional 
ships to add to that equation, but we're spread pretty thin. 
There are other demands. I've got a National Security Cutter 
supporting the PACOM Commander. That is righteous national 
security work. What this budget--last year, the 2019 budget, 
this budget, it's monies for small UAS. We signed a contract 
with Scan Eagle in situ back in December. We're equipping 
National Security Cutters at the pace of two a year with the 
small U.S. capability. So that tied to the maritime patrol 
aircraft, the 2019 budget that included the C-130J. Those C-
130J's are key enablers.
    The process works out of south derives from the interagency 
intelligence. We send an airplane out, a maritime patrol 
airplane, as you know, and then the cutter has to get there 
over the rise of boats. Our ships have the boats, and then 
there's the HITRON helicopter. All those pieces are the ideal 
package, sir.
    Senator Tester. And you guys do an incredible job. But I 
guess what I'm looking for, and I would like to get it, I think 
we would both like to get it, is we're talking long term, if 
we're going to do better than 20 percent--and, by the way, 
you're doing great, but I want to do better, right? What in the 
way of equipment, what in the way of personnel, what in the way 
of technology, what in the way of unmanned surveillance systems 
do you need to be able to achieve a higher percentage?
    Admiral Schultz. Sir, I would say it's all of the above. 
We've got some studies. We can tell you it's about 15 or 16 
major cutters. That's an OPC and a National Security Cutter 
with those enablers. That's what takes the dent out of it.
    Senator Tester. Got you. The real question is, can you get 
me what you need?
    Admiral Schultz. We can give you what we think would be the 
key enablers and take a bigger bite out of that.
    Senator Tester. That would be marvelous. Thanks very much.
    Senator Capito. I've got a few additional questions on the 
cost issue. In some of the discussions in this subcommittee and 
elsewhere, the cost of the Polar Security Cutter being over 
$695 million, the cost has been called into question in terms 
of whether you can build a similar commercial vessel for a lot 
less.
    How would you characterize that, as much as you can in an 
open setting? I know some of these are not quite public. Why is 
building such a ship more expensive and how carefully? I guess 
my succeeding question would be when we go to the second one or 
the third one, are there going to be some cost efficiencies 
that are going to be achieved because the first one is out of 
the chute and you've got some redundancy there? If you could 
address the cost issue on the Security Cutter.
    Admiral Schultz. Yes, ma'am, Madam Chairwoman. So first 
off, $675 million came in the 2019 appropriation. About 20 of 
that goes to the long leads. About $655 comes in on top of 
prior-year funding. So we think this first article, the first 
Polar Security Cutter, probably can build that in the $925, 
plus or minus a million dollar range. As we step forward to 
build Polar Security Cutters number two and three, we think 
that number will come down.
    It's tricky. We have not built a heavy icebreaker here in 
the United States in more than 40 years. There's different 
steel work, there's different types of welding and training. So 
this is a little bit of new ground for the nation, but we think 
we will have subsequent Security Cutters coming in at lower 
cost, potentially at--I'm loathe to put a number out there, but 
I would say potentially in the $700 million range, so I think 
you will see savings.
    We talked about the 6-3-1 strategy. It's a minimum of--we 
talk about the high-latitude studies of yesteryear, talking 
about the need for 3-and-3. As we build these first three 
ships, we may see there's economic savings, and we look at is 
that the whole conversation or is there a conversation about 
more Polar Security Cutters that look a lot different from what 
the medium breaker might look like.
    So I think the costing is going to limit, but we anticipate 
a significant decrease in hulls two and three. But I think 
about $940 is this first ship, $925, in that price range.
    Senator Capito. Is the reason that's so high because 
nothing has been built in this country that would be an apples-
to-apples comparison? And is part of the reason because you 
really don't know what it's going to cost?
    Admiral Schultz. Ma'am, I would say this. I would say, if 
you look at a National Security Cutter, a different platform, 
but we're building National Security Cutters about $670 million 
a ship. It's expensive to build a ship. This is going to be a 
world-class Polar Icebreaker, high horsepower, the ability to 
drive through six or seven feet of ice at 3 knots continuous, 
building to break through 20-plus feet of ice backing and 
ramming. It will have national security capability, what we 
call a SKIF, which I won't say too much more about here, but 
the ability to be an end user, a contributor to national 
security-level information.
    This ship will be projecting the U.S. national sovereign 
presence in the Arctic. It will be transiting down to the 
Antarctic and to the McMurdo breakout. So this is a lot of ship 
from the tonnage standpoint, from the horsepower, the ability 
to--you know, we send the Polar to Antarctica without a 
helicopter in the back. Ideally, that mission is complemented 
by having rotor wing capability. We have not done inspections 
work under international treaties in more than 20 years. We 
will not send the Polar Security Cutter north or south in the 
future without having a helicopter on board.
    So this is a sophisticated ship. It's not a 30-knot ship, a 
28-knot ship, like a National Security Cutter, but there are 
other capabilities here that just have high price tags. If you 
compare that to a DDG, a cruiser. Shipbuilding is not a cheap 
proposition here domestically, ma'am. But we need to build that 
ship here in the United States.
    Senator Capito. Oh, I agree. We obviously agree because we 
pushed hard in the conference to make sure we maintain that for 
the Coast Guard, and for the nation as well.
    Let me ask you, you talked in your opening statement a lot 
about readiness. In your budget, you have a heavier emphasis on 
operating costs. Are you equating, Can I equate in my mind 
readiness with operating cost? Is that how you're thinking 
about it?
    Admiral Schultz. Absolutely, ma'am. I'd say if you look at 
the Coast Guard over the eight-plus years since the Budget 
Control Act, so the BCA level was 1.8 percent growth. Over the 
last five or 6 years we've been about 1.2 percent. I called out 
in my oral statement 4.0, when DOD got 12 percent in 2018. 
We've been below that BCA level. The 2019 budget got us above 
2-something. The 2020 is about 2.2. But really, when you lose 
that purchasing power over a good part of the last decade, 
we're playing catch-up.
    We made decisions, cut recruiting losses. You asked about 
recruiting. We've gone back and put people back in recruiting. 
To really recruit the workforce we're striving for, we need to 
grow recruiting offices and go to places we haven't been.
    Health care, we cut health benefit advisors, we cut 
certified medical administrators just to get under budget. 
Those are things that are absolutely vital to retaining a 
talented workforce.
    Folks have choices. We have tremendous people who are 
either apprentices, journeymen, subject-matter expert kind of 
models. So we invest in a 20-year Coast Guard. With that new 
blended retirement, there is absolutely a direct tie between 
talent, talent management, and readiness.
    The $10 million here for 4X, we lost the equivalent of 
three ships in the last 2 years. So in 2017, 300 major Cutter 
days. That's a flight deck-equipped ship doing the work that 
both you and the senator were interested in in the eastern 
Pacific Ocean, we lost 300 days. If you look at the 2018, last 
year there's a third ship in there. We lost the equivalent of 
seven. We program our Dolphin helicopters about 600, 650 hours 
annually. We lost 4,500 air hours for seven--that's seven 
helicopters, a full year of program hours, in both 2017 and 
2018.
    So we're chasing a deferred maintenance thing, and then 
we've got a $1.7 billion infrastructure backlog. Those are 
facilities. The hurricane monies fix broken and damaged 
facilities, and then some resiliency money. That allows us to 
upgrade places like Key West. We upgraded that station in the 
90s.
    So the funds you've been giving us have been absolutely 
critical. But we're pulling a readiness backlog and we're 
funded below the inflationary rate of running an organization. 
That's sort of where we've found ourselves, ma'am.
    Senator Capito. I know in the supplemental there's some 
recouping or some remediation dollars for the Coast Guard for 
some of the facilities that were harmed over the last year in 
the hurricanes. I'm going to give you a real softball question 
because, like Senator Tester, we traveled together. He took me 
to the border as well, and he came to West Virginia, and I 
think there's no better ambassador for the Coast Guard than 
you, quite frankly. So if there is an 18, 19, 20 or 23-year-old 
man or woman watching this, how do you recruit them to the 
Coast Guard? What are the three things you tell them about the 
Coast Guard?
    Admiral Schultz. Well, I would tell you this, Madam 
Secretary. That is a softball.
    [Laughter.]
    Admiral Schultz. I think we have the brightest workforce 
that I've been privileged to serve with for almost 36 years. 
Our missions are absolutely relevant to the security of the 
nation, the economic prosperity of the nation, from the 
counter-drug mission to the south. I no longer look at the 
Arctic as emerging. I look at that as a competitive space. It 
is absolutely projecting sovereignty there. I look at what we 
do in terms of the rescues. You mentioned 15,000 rescue cases, 
4,000 lives saved, the contingency operations backing Hurricane 
Harvey and Irma; 2017 was a tremendously challenging year. The 
Coast Guard rescued 13,000 people that year just in hurricanes. 
Last year, 900 in Florence and Michael.
    I think we have missions that make men and women come to 
work and feel very much valued. We have some opportunities to 
broaden our diversity. I would like to see more women in 
traditional male-dominated career paths--machinery technicians. 
We've got some opportunities there.
    But it's an exciting time because our relevance and the 
need for our services has never been higher. With the support 
of the Administration and Congress, we have the best platforms. 
I ran around on 40 and 50-year-old ships. If I was a young 
sailor--I have a son who is a cadet, and I look forward to him 
serving on a fast response cutter, an offshore patrol cutter, a 
National Security Cutter. Or maybe he goes and flies on one of 
these capable airborne use-of-force HITRON helicopters. We want 
to bring those capabilities too. It's an exciting time, ma'am, 
to be a Coast Guardsman.
    Senator Capito. Thank you.
    Senator Tester. Commandant, I want to go back to the 
icebreakers for a second. How many icebreakers does Russia 
have?
    Admiral Schultz. So, Russia has in the high 40s. They have 
a range of different vessels, but they have somewhere between 
45 and 50 breakers.
    Senator Tester. How about China?
    Admiral Schultz. China, sir, has a research ship, the Sea 
Dragon. They just launched a sister ship with that last summer, 
and indications are they're building a heavy icebreaker. China 
is not an Arctic nation. They've declared themselves a near-
Arctic state, as you know.
    Senator Tester. So I go back to Montana and they say, why 
are you going to spend $920 million on a boat that breaks ice? 
Tell me why this is important to our national security.
    Admiral Schultz. Absolutely, Senator. So, first off, if you 
look at the high latitudes, the Arctic and the Antarctic, there 
is strategic, geo-strategic criticality to both of those. In 
the Arctic, about 13 or 15 percent of the untapped petroleum 
lies in fairly shallow waters off the coast in the Beaufort and 
Chukchi Seas, about 30 percent of untapped natural gas 
resources, a trillion dollars of critical minerals that we care 
about. So there's economic interests.
    You've got China operating up there as a nation from a 
defense standpoint. The Air Force is fielding fifth-generation 
fighters up there. China is not up there just because they're 
interested in doing ice research. They're up there paying 
attention to what we're doing.
    I mentioned in my statement that sovereignty is all about 
presence equaling influence. We are not there. The one heavy 
breaker we have makes an annual sojourn from McMurdo to break 
out the station. In the south, China is building additional 
camps and sites in the south. The National Science Foundation 
is undergoing their four-plus-year recapitalization of our 
international ice station. The Polar is absolutely essential to 
bringing materials in, to escorting the ships that will bring 
the materials in for that project. That's about a $450 million 
Aims project, they call it.
    But I'll tell you, sir, it's a competitive space. We are 
the sole U.S. surface presence in the Arctic, outside of the 
Navy going up there every other year with a submarine. We are 
the face of the nation.
    Senator Tester. Okay. I'll ask one more question before we 
go over to Jeanne.
    Your backlog for infrastructure modernization is $1.7 
billion?
    Admiral Schultz. Yes, sir.
    Senator Tester. This budget request includes about $174 
million for shore facilities. How many years do you think it's 
going to take to get your backlog to a point where it's not a 
backlog anymore?
    Admiral Schultz. Senator, that's a great question. I will 
tell you that $1.7 billion is growing. I think it's 30 percent 
of our facilities are more than 50 years old, so that's a tough 
place to play catch-up ball. But we are very encouraged. With 
the support of this committee, that is a bite in this. We had a 
little bit of bleed off from the resiliency money and the 
supplementals. There's been additional talk about some 
potential monies here for the recent hurricanes, Florence and 
Michael. So I would say that's a long slog. But if we're biting 
into it, that's different than where we've been here in recent 
years.
    Senator Tester. How much is your deferred maintenance 
increasing each year?
    Admiral Schultz. I'd have to get back to you on that. I'd 
say we took a bite out of it to the tune of $100-plus million 
with the help in the 2018 supplemental. I think we're about 
stagnant right now. I don't think we started biting into it 
yet. This $100 million included here, the $174, maybe starts to 
unload on that.
    Senator Capito. Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chair.
    Commandant Schultz, thank you very much for your service to 
this country. We have a Coast Guard station in New Hampshire 
we're very proud of. I had the opportunity to meet with members 
of the Coast Guard station there during the government 
shutdown, and I know the concern and anxiety they felt, and I 
will tell you that I hope we never again have a government 
shutdown; but, if we have one, make sure that the Coast Guard 
is understood clearly to be part of the defense of this country 
and it's not separated out from the rest of defense.
    As Senator Capito may have talked about the challenges that 
West Virginia has with the opioid epidemic, we have similar 
challenges in New Hampshire where we have a very high overdose 
death rate and have seen the devastation that it creates for 
families. The Coast Guard has obviously been very important in 
our drug interdiction efforts.
    Can you talk about, as the former Director of the Joint 
Task Force East responsible for executing the DHS Southern 
Border and Approaches Campaign, what are some of the ways that 
you've seen substances come into this country, that 
transnational criminal organizations operate to bring in drugs 
to the United States, and what more do you see that we could be 
doing to interdict those drugs as they come in?
    Admiral Schultz. Well, Senator, thank you for the question. 
Thank you for your personal outreach to our men and women 
during the shutdown. I encouraged yesterday, earlier this week, 
the House out of the full transportation infrastructure 
meeting, to advance the Coast Guard Parity Act at the markup, 
so we'll see where that goes. But thank you for reaching out to 
our people.
    Ma'am, on the drug thing, obviously when we talked about it 
here before your arrival, we are absolutely an essential piece 
predominantly on bulk cocaine coming into the United States. 
When you look at the fentanyl, the opioid challenge, it's a 
little different model. Much of that is coming out of Mexico, 
much is coming out of China, much through mail order. We have 
not seen quantities. We've had small loads of methamphetamines 
mixed in with other commodities off the coast of California, 
occasionally in the eastern Pacific Caribbean.
    I think looking back to my time as a Joint Task Force East 
Director, one of the three DHS task forces that was 
predominantly maritime focused, but the work of the Department 
is absolutely essential. Homeland Security Investigations is 
working this. They're on methamphetamines, fentanyl, again with 
Mexico being there.
    I think these are harder. The cartels, when you think about 
with cocaine, a cartel for fentanyl is an individual with a 
computer in his or her basement pushing this through the mail. 
It's a very difficult challenge. So the work that CBP does with 
the Postal Service, it's about new technologies to screen 
capabilities there.
    So far, ma'am, we have not seen that opioid crisis affect 
the Coast Guard in terms of our ability to take down large 
quantities. What we do see is in our communities, we have 
outfitted our front line operating units with Narcan. So if we 
come across an individual fisherman or recreational boater that 
is subject to that, we can treat them and get them the medical 
care. We continue to keep our game high on trying to make sure 
folks at sea are not under the influence of substances. But we 
have not been heavily invested there.
    But if you look at drugs writ large, the trend in the 
nation, first-time cocaine use is up in the last year or two, 
and that was trending down, with more deaths in America from 
drug use and accidents. That trend line is going in a bad 
direction. So this is a very difficult problem.
    I work closely and I'm on the interdiction committee. 
That's another hat I wear. I work very closely with Jim 
Carroll, the Director of (ONDCP) Office of National Drug 
Control Policy, and we have a partnership there. So we're 
looking for places where the Coast Guard can complement the 
opioid crisis. To date, ma'am, most of our work continues to 
remain on thwarting cocaine moving from the transit zone to the 
United States.
    Senator Shaheen. Several years ago, a number of us met with 
General Kelly when he was the head of SOUTHCOM, and I remember 
one of the things he said to us was that they could only 
interdict about 20 percent of the drug movements that they were 
able to identify because of the budget challenges they were 
facing.
    Are you seeing that? If we provided more in the way of an 
operating budget, could you interdict more cocaine and other 
substances coming into the United States?
    Admiral Schultz. Senator, it is absolutely a conversation 
about capacity. We have visibility working through SOUTHCOM. I 
was the former Director of Operations, working for General 
Kelly at SOUTHCOM until more recently. We have visibility. 
About 80 to 85 percent of the drug movements at sea for cocaine 
out of the source countries. That's generally Colombia for 95 
percent of the cocaine coming to America. We action about 25 
percent. And those cases we action, we're successful in more 
than 75 or 85 percent of the cases.
    So we have the ability to take down more drugs, but it's a 
conversation about capacity, and those are choices the nation 
makes. The ideal package is flight deck-equipped ships. That's 
a medium endurance cutter today, or an OPC, offshore patrol 
cutter tomorrow, National Security Cutters. It's long-range 
maritime patrol aircraft, C-130J's. This committee has been 
very supportive. It's additional HITRON helicopters, airborne 
use of force. The 2020 budget proposes 400 additional hours to 
help us provide a fifth helicopter down range, and the new 
ships have the over-horizon capabilities. There are some monies 
in this budget for additional intelligence analysts, the 
ability to domestically exploit cell phone technologies at sea 
to potentially paint an additional intelligence picture.
    So those are all enablers, and then it really is capacity. 
I don't want to sit here and tell you--I'm saying with more, we 
can do more. But we have other competing demands for those 
National Security Cutters as well. We have one supporting the 
Indo-Pacific Commander right now in the South China Sea. 
They've been doing sanctions enforcement of the DPRK. They're 
doing other work, pushing sovereign U.S. presence and goodness 
into areas that we're competing with China.
    Senator Shaheen. Well, thank you very much. Again, thank 
you for the work that the men and women of the Coast Guard do. 
I hope we're going to be able to get you some greater capacity 
that you need to continue your mission.
    Admiral Schultz. Senator, thank you for your support of our 
men and women. Thank you.
    Senator Shaheen. Thank you.
    Senator Capito. Well, I see no other questioners, so this 
will conclude today's hearing, Admiral Schultz. We appreciate 
you appearing before the subcommittee, your service, and your 
incredible responsiveness to members of this Committee and the 
Senate in general.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for two weeks from 
today. Senators may submit written questions for the record. We 
ask that the Department respond to them within a reasonable 
amount of time.
          Questions Submitted by Senator Shelley Moore Capito
               coast guard women career path limitations
    Question. The Coast Guard has many, many career paths, but on a 
recent trip to Huntington, West Virginia, I learned that the inland 
river buoy tending mission, in many cases, must be staffed by single 
gender crews, because of inadequate berthing facilities on board inland 
river buoy tenders.'
     Are there other career paths that women have difficulty pursuing 
in the Coast Guard due to similar limitations?
    Answer. Women can pursue any career path in the Coast Guard. 
However, ship berthing availability may restrict some opportunities for 
enlisted women. This does not restrict career progression, but it may 
restrict geographic locations for those ships that cannot accommodate 
women.
          waterways commerce cutter recapitalization timeline
    Question. The Coast Guard has many, many career paths, but on a 
recent trip to Huntington, West Virginia, I learned that the inland 
river buoy tending mission, in many cases, must be staffed by single 
gender crews, because of inadequate berthing facilities on board inland 
river buoy tenders.
     When do you anticipate the completion of the recapitalization of 
the Waterways Commerce Cutter program that will enhance the ability of 
women to perform this mission?
    Answer. The Coast Guard is currently conducting an Alternatives 
Analysis to support the decision on the solution to replace the 
capabilities currently provided by the inland tender fleet. Once the 
solution is determined, the Acquisition Strategy (AS) and Acquisition 
Plan (AP) will be developed. The AS and AP will inform the acquisition 
schedule. The new capability will have accommodations for mixed-gender 
crewing.
                coast guard infrastructure improvements
    Question. The Congress is currently considering a supplemental 
funding bill, and it includes substantial resources for the Coast Guard 
to rebuild and improve infrastructure that was damaged during recent 
disasters.
    How will Coast Guard readiness be impacted if these resources for 
repairs and necessary improvements to Coast Guard infrastructure are 
not provided to the Coast Guard?
    Answer. By failing to recapitalize the Coast Guard's shore 
infrastructure through PC&I investments, the Coast Guard increasingly 
relies on Operations and Support (O&S) funding to complete maintenance 
and repair on shore facilities which are at, or beyond, the end of 
their service life. Continuing to defer recapitalization and 
maintenance of shore infrastructure is costly, creates health and 
safety issues, and can lead to failures that directly impact Coast 
Guard operations.
    Question. Can you give us some specific examples of Coast Guard 
infrastructure projects that are important and why they are important?
    Answer. The following are examples of three construction projects 
resulting from severe damage sustained during the 2018 Hurricane 
Season.
    The $46.7M construction project at Coast Guard Station Panama City, 
FL rebuilds to resilient standards the severely damaged Marine Safety, 
Aids to Navigation, and Electronics Support buildings and associated 
support buildings and structures, including damaged waterfront and 
utilities. Multiple buildings are condemned/unusable with military 
personnel working out of trailers and mission execution impacted by 
only partial mission capable facilities.
    The $91.8M construction project at Coast Guard Special Missions 
Training Center (SMTC), collocated at Camp Lejeune, NC, replaces 
destroyed and damaged facilities used for administration and training 
function with resilient buildings, repairs and restores utilities, 
rebuilds piers, docks and waterfront support and training facilities. 
Currently the buildings and structures are destroyed or severely 
damaged, jeopardizing the ability of the Coast Guard to provide boat, 
firearms and specialized tactics training and support for 600+ 
students/instructors each year. Training classes have been reduced due 
to unusable waterfront and facilities.
    The $49 million construction project at Coast Guard Sector Field 
Office Fort Macon, NC rebuilds to resilient standards the destroyed 
Station building, repairs numerous other building roofs and building 
envelopes, replaces damaged support buildings, and replaces damaged 
floating docks, piers and utilities. The Station building is condemned 
with military personnel working out of trailers and mission execution 
impacted by only partial mission capable facilities.
              coast guard migrant interdiction operations
    Question. The Coast Guard has an important role in stopping the 
illegal flows of migrants into the United States. We are currently 
devoting a lot of attention to the escalating crisis on the southwest 
border.
    Will the Coast Guard see more migrants taking to the seas as the 
Administration boosts investments in infrastructure along the southwest 
land border?
    Answer. As the land border hardens it is likely there may be an 
increase in maritime migration as migrants search for other ways to 
enter the U. S.
    Question. Can you describe these migrant interdiction efforts and 
where the Coast Guard is most active in interdicting migrants?
    Answer. The Coast Guard is most active in interdicting migrants in 
the Caribbean Sea, primarily the Mona Pass (vicinity west coast of 
Puerto Rico), Windward Pass (north coast of Haiti), and Straits of 
Florida.
    Question. Has the Coast Guard been asked to take action to support 
efforts along the southwest land border?
    Answer. Yes. The Coast Guard is primarily providing administrative 
and logistical support to Customs and Border Protection as well as some 
limited patrols (helicopter and boat) on the Rio Grande River.

                                 ______
                                 

             Questions Submitted by Senator Lisa Murkowski
             coast guard polar security cutter acquisition
    Question. Admiral, we are finally gaining some traction on the 
Coast Guard's Polar Security Cutter program. And now that we have a 
little momentum, I'm surprised to see only $35 million in the fiscal 
year 20 request for the second Polar Security Cutter. We can all agree 
that this is a top priority for the Nation.
    Given that, does this funding keep the icebreaker acquisition on 
schedule?
    Answer. The $300 million in Navy Shipbuilding and Conversion (SCN) 
Advance Procurement (AP) funding coupled with the $675 million in the 
fiscal year 2019 DHS appropriation was sufficient to award the Detail 
Design & Construction (DD&C) contract to complete detail design, long 
lead-time material (LLTM) purchase, and construction of the first PSC, 
along with some initial LLTM for the second. The fiscal year 2020 
request maintains the current schedule; however, additional funding 
will be necessary in future years to continue production of Polar 
Security Cutters (PSCs). Additional funding in fiscal year 2020 can 
provide advance funding to guard against contingencies or begin 
acquisition of long-lead time materials for follow-on ships.
    child care for coast guard families in high cost of living areas
    Question. During the government shutdown, when the paychecks of the 
hardworking men and women of the Coast Guard were held hostage because 
of political disputes, I held teleconferences with Coast Guard spouses 
stationed throughout Alaska to better understand the impact of the 
shutdown on their families. A concern that was shared across every 
remote Coast Guard community in Alaska was the ridiculously high cost 
of childcare services. I know the Coast Guard has a base funding for 
child care subsidies of about $6 million, and I did not see a request 
for childcare subsidy increases in the fiscal year 20 budget.
    Is there a way we can help lower the cost of child care for Coast 
Guard families serving in high cost of living areas?
    Answer. The child care subsidy program is the most versatile 
program to administer an offset to child care costs for all eligible 
members in the Coast Guard and can be administered in any geographic 
location. Additional appropriations identified for child care subsidies 
is the most efficient method to assist families in offsetting child 
care costs, more specifically in high cost of living areas.
        coast guard funding for alaska shoreside infrastructure
    Question. The Coast Guard is in the process of gradually replacing 
assets in Alaska that are several years past their expected service 
life with new resilient cutters, including new Fast Response and 
Offshore Patrol Cutters. These new cutters will facilitate the Coast 
Guard's ability to perform many of its missions in Alaska. However, 
these new cutters are bigger than the ones they are replacing, are 
manned by larger crews, and will require upgrades to docks, housing, 
and port facilities.
    Is there any funding in this year's budget for the Alaska shoreside 
infrastructure needed to support the new Coast Guard cutters that will 
be replacing the older ships in the state?
    Answer. The fiscal year 2020 President's Budget request includes a 
$20.6 million Coast Guard project to support waterside and shore side 
infrastructure requirements for the Fast Response Cutter (FRC) homeport 
in Sitka, AK.
    The fiscal year 2020 President's Budget request also includes a $25 
million project for a cutter maintenance facility to support Offshore 
Patrol Cutters (OPCs) and FRCs at Coast Guard Base Kodiak, AK; however, 
this project is duplicative and was funded in the Coast Guard's fiscal 
year 2019 Enacted Appropriation.
            coast guard ketchikan dock space for noaa vessel
    Question. The Coast Guard facilities in Ketchikan are the pillar 
providing support for Coast Guard assets in much of southeast Alaska. 
The suitability of the docks and shoreside infrastructure are part of 
the reason you allow two of your Fast Response Cutters, the ANTHONY 
PETTIT and BAILEY BARCO, to call Ketchikan their home port. I have long 
supported efforts to return the NOAA hydrographic vessel R/V 
FAIRWEATHER to its home port of Ketchikan, in accordance with title II 
of the Departments of Commerce, Justice, and State, the Judiciary, and 
Related Agencies Appropriations Act, 2002. I've been told that 
Ketchikan does not have the appropriate dock to support this vessel.''
    Does the Coast Guard have dock space available for the R/V 
FAIRWEATHER?
    Answer. No; Base Ketchikan uses all dock space currently available.
    Question. If not, would the Coast Guard consider cost-share 
opportunities with NOAA in the development of the shoreside 
infrastructure needed to support the return of the R/V FAIRWEATHER to 
its homeport of Ketchikan?
    Answer. The Coast Guard continually engages in partnerships with 
fellow government agencies and would consider working with NOAA to 
explore the opportunities for dock space and shoreside infrastructure 
expansion in Ketchikan.

                                 ______
                                 

            Questions Submitted by Senator Joe Manchin, III
         waterways commerce cutter build & acquisition timeline
    Question. The inland cutter fleet possesses the unique capability 
to establish, maintain, and operate inland aids to navigation to 
support the safe and efficient flow of this activity along U.S. rivers, 
lakes, intracoastal waterways, and harbors. They are also able to 
quickly and effectively respond to emergencies such as environmental 
incidents and severe weather events. Unfortunately, most of this fleet 
has been in service for over 50 years. I understand you are looking 
toward the replacement of its inland tender fleet with the proposed 
Waterways Commerce Cutter. Our coastal ports are some of our greatest 
economic drivers, and I know coastal states often reap the benefits of 
the natural advantages of their location, providing the manufacturing 
and necessary to fulfill the Jones Act by building, owning, and 
operating the vessels that ship goods between U.S. ports.''
    In the same way, has the Coast Guard considered giving preference 
to states with extensive inland waterways to build the Waterways 
Commerce Cutter (WCC)?
    The WCC program is currently conducting an Alternatives Analysis to 
support a decision on the solution to replace the capabilities 
currently provided by the inland tender fleet. Once the solution is 
determined, the Acquisition Strategy (AS) and Acquisition Plan (AP) for 
the WCC will be developed in accordance with all appropriate statutes 
and regulations.
    Question. Have you set a timeline for when you will begin the 
acquisition process for the Waterways Commerce Cutter?
    Answer. The WCC program entered the acquisition process in January 
2018 and has sought opportunities to accelerate this crucial 
acquisition. Currently, the program is completing an Alternatives 
Analysis. Once the analysis is complete, the Acquisition Strategy (AS) 
and Acquisition Plan (AP) will be developed. The AS and AP will inform 
the acquisition schedule.

                          SUBCOMMITTEE RECESS

    Senator Capito. This hearing was adjourned.
    [Whereupon, at 10:50 a.m., Thursday, March 28, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre></body></html>
